<html>
<title> - PRESERVING PROGRESS IN IRAQ, PART III: IRAQ'S POLICE DEVELOPMENT PROGRAM</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                PRESERVING PROGRESS IN IRAQ, PART III: 
                   IRAQ'S POLICE DEVELOPMENT PROGRAM

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                     THE MIDDLE EAST AND SOUTH ASIA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 30, 2011

                               __________

                           Serial No. 112-87

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
71-400                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e186918ea18294929589848d91cf828e8ccf">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York<greek-l>As 
    of October 5, 2011 deg.
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

             Subcommittee on the Middle East and South Asia

                      STEVE CHABOT, Ohio, Chairman
MIKE PENCE, Indiana                  GARY L. ACKERMAN, New York
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
ANN MARIE BUERKLE, New York          DENNIS CARDOZA, California
RENEE ELLMERS, North Carolina        BEN CHANDLER, Kentucky
DANA ROHRABACHER, California         BRIAN HIGGINS, New York
DONALD A. MANZULLO, Illinois         ALLYSON SCHWARTZ, Pennsylvania
CONNIE MACK, Florida                 CHRISTOPHER S. MURPHY, Connecticut
MICHAEL T. McCAUL, Texas             WILLIAM KEATING, Massachusetts
GUS M. BILIRAKIS, Florida
TOM MARINO, Pennsylvania
ROBERT TURNER, New York<greek-l>As 
    of October 11, 2011 deg.


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Ms. Brooke Darby, Deputy Assistant Secretary, International 
  Narcotics and Law Enforcement, U.S. Department of State........     6
Mr. Stuart W. Bowen, Jr., Inspector General, Office of the 
  Special Inspector General for Iraq Reconstruction, accompanied 
  by Mr. Glenn D. Furbish, Assistant Inspector General for 
  Audits, Office of the Special Inspector General for Iraq 
  Reconstruction.................................................    24

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Ms. Brooke Darby: Prepared statement.............................     8
Mr. Stuart W. Bowen, Jr.: Prepared statement.....................    26

                                APPENDIX

Hearing notice...................................................    44
Hearing minutes..................................................    45


   PRESERVING PROGRESS IN IRAQ, PART III: IRAQ'S POLICE DEVELOPMENT 
                                PROGRAM

                              ----------                              


                      WEDNESDAY, NOVEMBER 30, 2011

              House of Representatives,    
                Subcommittee on the Middle East    
                                        and South Asia,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1 o'clock 
p.m., in room 2172 Rayburn House Office Building, Hon. Steve 
Chabot (chairman of the subcommittee) presiding.
    Mr. Chabot. The subcommittee will come to order. Good 
afternoon. I want to welcome my colleagues to this hearing of 
the Subcommittee on the Middle East and South Asia.
    Before addressing the topic of today's hearing, I would 
like to say a few words about President Obama's recent 
announcement of a full withdrawal from Iraq by the end of 2011. 
For over 8 years, U.S. servicemen and women have labored in 
Iraq and sacrificed beyond our comprehension to achieve real, 
tangible gains. The mere fact that we today are discussing how 
to help Iraq improve the effectiveness of its police force is a 
testament to that fact.
    Despite this, Iraq remains in a precarious position. It is 
painfully clear that although the Iraqi army has progressed 
remarkably from where it once was, Iraq is not yet prepared to 
defend itself from the threat posed by its nefarious neighbors: 
Iran and Syria. It is with this concern in mind that the U.S. 
and Iraq endeavored to negotiate an agreement which would 
maintain a small U.S. troop presence into 2012.
    Public reports indicate that General Lloyd Austin, 
Commanding General of U.S. forces in Iraq, requested and 
recommended approximately 20,000 U.S. troops remain in Iraq. 
Unfortunately, these negotiations failed due to in my opinion 
mismanagement by this White House. Amazingly, the White House 
is now trying to tout the breakdown and lack of agreement as a 
success inasmuch as it has met a promise President Obama made 
as a candidate.
    This blatant politicization calls into question the White 
House's entire effort to secure a troop extension. Fulfilling a 
campaign promise at the expense of American national security 
interests is, at best, strategic neglect and, at worst, 
downright irresponsible. And the White House tacitly admits 
this in negotiating an extension in the first place.
    I fear, however, that our objective is no longer to ensure 
that Iraq is stable but merely to withdraw our forces by the 
end of this year in order to meet a political timeline. Saying 
that Iraq is ``secure, stable, and self-reliant,'' as Deputy 
National Security Advisor Denis McDonough recently did, does 
not make it so.
    And to borrow a quote from then-Senator Clinton, it 
requires ``the willing suspension of disbelief'' to believe 
that withdrawing our forces from Iraq at a time when Iranian 
agents seek to harm at every turn our country and its allies 
advances our strategic interests.
    Although I understand that Iraq is a sovereign country, I 
believe there is much more we could have done to secure a 
reasonable troop presence beyond the end of this year. 
Accordingly, I would like to again echo Senator Lieberman's 
call to reopen negotiations with the Iraqis. It would be a 
failure of colossal proportions to withdraw our forces before 
Iraq is ready to stand on its own.
    Today's hearing is being called to evaluate the Department 
of State's Iraq Police Development Program, the PDP, which has 
regrettably been plagued by mismanagement and poor planning 
since its inception.
    A recent audit by the Office of the Special Inspector 
General for Iraq Reconstruction, SIGIR, raises a number of 
serious questions about the efficacy of this program. SIGIR's 
audit paints a picture of a program which has been formulated 
without a clear understanding of or attention to the actual 
needs of the Iraqi Ministry of the Interior, MOI.
    In a dooming interview conducted by SIGIR officials, Iraq's 
Senior Deputy Minister of the Interior Adnan Al-Asadi 
rhetorically asked ``What tangible benefit will Iraqis see from 
this police training program? With most of its money spent on 
lodging, security, and support, all the MOI gets is a little 
expertise, and that is if the program materializes. It has yet 
to start.''
    More to the point, he suggested that the U.S. ``take the 
program money and the overhead money and use it for something 
that can benefit the people of the United States because there 
will be very little benefit to the MOI from the $1 billion.''
    Although I appreciate Mr. Asadi's sensitivity to the 
current fiscal climate, his statement makes very clear that the 
PDP as it exists today will not meet Iraq's needs and has 
little, if any, Iraqi buy-in.
    And although our witness here today may testify that the 
Iraqi MOI does, in fact, appreciate the value of the currently 
formulated PDP, the Government of Iraq has yet to sign a 
written agreement committing to the program or offer a single 
dollar to contribute to it.
    I am also deeply concerned by the reports of obstruction 
and noncooperation on the part of the Department of State 
during SIGIR's audit. This is extremely distressing. And, to 
echo the sentiments of several of my colleagues in the other 
body which they recently expressed in a letter to Secretary of 
State Clinton, the Department of State is legally obliged to 
cooperate with SIGIR in the execution of its mission; 
jurisdictional games are unacceptable.
    Although I have many concerns about the nature of the 
current PDP, I do not believe that a permutation of it is 
unimportant. The intent of this hearing is not to foreclose the 
idea. It is not the idea, but the implementation that worries 
me. Helping Iraq build an effective police capability is of 
paramount importance. The devil, as they say, is in the 
details. And it is my hope that with proper planning, the U.S. 
can help Iraq develop a capable and accountable police force 
that serves its people's needs.
    And I would now yield to the gentleman from New York, the 
distinguished ranking member of the committee, Mr. Ackerman, 
for 5 minutes.
    Mr. Ackerman. I thank the chairman very much. Thank you for 
calling this very important oversight hearing.
    I would like to welcome Brooke Darby, Deputy Assistant 
Secretary of State, representing the State Department. And I am 
particularly pleased today that we are going to be hearing from 
Stuart Bowen, the Special Inspector General for Iraqi, who, 
with a team of true professionals, has been doing a tremendous 
job protecting the U.S. taxpayers' interests.
    Our topic today is the Police Development Program, which 
Mr. Bowen and his team have been warning is heading for trouble 
for many, many months now. He has testified before other bodies 
in Congress. He has released written quarterly reports as well 
as specific audits. And the message is the same. The program 
for which Department of State officially took responsibility on 
October 1st is nearly a textbook case of why government 
procurement, in this case foreign assistance, doesn't buy what 
we think we are paying for, what we want, and why more money 
will make the problem worse.
    Failed procurement is not a problem unique to the State 
Department. And when it comes to frittering away millions, 
Foggy Bottom is a rank amateur compared to the Department of 
Defense.
    As our colleagues on the Armed Services Committee have 
learned, the best projects with the most desirable purposes can 
go horribly, horribly off track. And the hardest thing it seems 
that any bureaucracy can do is pull the plug on a failed 
initiative.
    How do we know the Police Development Program is going off 
track? Very simple things demonstrate a strong likelihood of 
waste and mismanagement. Number one, does the Government of 
Iraq, whose personnel we intend to train, support the program? 
Interviews with senior Iraqi officials by the Special Inspector 
General show utter disdain for the program. When the Iraqis 
suggest that we take our money and do things, instead, that are 
good for the United States, I think that might be a clue.
    Subsequent diplomatic intervention by the State Department 
with the Iraqi Ministry of the Interior may have changed their 
officially stated views, but I, for one, take the Iraqis' 
initial unfeigned contempt to be a more reliable indicator than 
their post-coaching enthusiasm.
    So if the Iraqis are ambivalent, is the PDP program at 
least correctly structured to fill gaps in capabilities that 
have been clearly identified and assessed? The answer again is 
no. Despite being in development for years, as of today, the 
program's objectives remain a mushy bowl of vague platitudes.
    There is no comprehensive and detailed plan for execution. 
There is no current assessment of Iraqi police force 
capability. And, perhaps more tellingly, there are no outcome-
based metrics. This is a flashing red warning light.
    Surely the bureau within the State Department that will be 
administering this $887 million program is aware of these 
deficiencies and is moving swiftly to address them based on 
their long history of successful contract administration and 
robust management capabilities. Right? Well, not exactly.
    The particular bureau at State that has inherited this mess 
from the Department of Defense is the Bureau of International 
Narcotics and Law Enforcement, known as INL. INL until 9/11 was 
informally known as the Drugs and Thugs Bureau, focusing 
chiefly on fighting drug trafficking and working to close the 
space available to international crime.
    Suddenly, with the advent of the war on terror, INL was 
asked to administer hundreds of millions of dollars in 
contracts in two active theatres of war. Its performance has 
been subject to many audits and quarterly reviews by the 
Special Inspectors General for Iraq and Afghanistan.
    Pre-9/11, INL had no history with massive acquisition, 
large contract administration, or long-term program management 
on a large scale. It lacked trained personnel, management 
capacity, and was, frankly, overwhelmed. INL personnel have 
tried hard, but the results have often been poor.
    Audit activity by the Special Inspector General on the PDP 
shows that the Bureau again is unprepared for the very large 
task they have been asked to handle. The warning klaxon is 
blaring.
    The best indicator for any failed government acquisition, 
whether foreign aid or procurement of a new fighter-bomber, is 
incessant changes in program and funding requirements. As 
mentioned, the Police Development Program is already moving 
ahead without a strong buy-in from the Government of Iraq or a 
clear and well-defined plan of action, or clear measures of 
success. Not surprisingly, the funding levels, personnel 
requirements, and spending plans for the PDP have all been in 
flux from year to year. We should now be evacuating this 
building.
    There is, of course, one more major sign of impending 
failure. As the last of our troops leave Iraq next month, yes, 
next month, as the President promised and as our Nation 
deserves, the interest of the United States Congress in Iraq is 
going drop like a tree in an empty forest. Not only will it 
plummet to Earth, it will do so without anyone even being aware 
it happened. A roughly $900 million program without clear 
objectives, intended for a partner we will have forgotten, with 
requirements that change yearly and no genuine partner country 
buy-in, is no place I would be willing to put my money or that 
of my constituents.
    Let's not wait for Mr. Bowen's next cringe-inducing audit. 
Let's pull the plug right now.
    Mr. Chabot. Thank you very much.
    At this time if any of the members would like to make a 1-
minute opening statement, we would be happy to call them in the 
order that they arrived. Mr. Marino, that would put you next if 
you would like to say anything. Okay. Mr. Higgins?
    Mr. Higgins. Yes just briefly, Mr. Chairman. I, too, am 
very disturbed by what I read here. Given the amount of 
American investment in Iraq already. Since 2003, we have 
committed $8 billion, $8 billion to training Iraqi police, 
almost $1 billion more for 2012.
    The fact of the matter is when the surge was undertaken, it 
was designed to tamp down violence to give some breathing room 
for the Iraqis, Sunni, Shia, the Kurds to do political 
reconciliation and deal with all of those other existential 
issues, to keep that society from evolving.
    Those issues still aren't resolved. And until those issues 
are resolved, you can't begin to think about developing a 
police force that people are going to recognize as legitimate.
    In northern Ireland when we do peace between the Catholics 
and the Protestants, political reconciliation preceded the 
issue of policing. And so it was political reconciliation and a 
commitment to proceed. Then the all-important issue of policing 
was dealt with.
    This is very disturbing and I don't think a good investment 
of U.S. tax dollars.
    Mr. Chabot. Thank you. The gentleman's time has expired.
    The gentleman from California, Mr. Rohrabacher, is 
recognized for 1 minute.
    Mr. Rohrabacher. This whole episode in American history is 
a very disturbing thing to look at. And I think when people 
look back, they are going to wonder why the hell did we ever go 
into Iraq and there will be no question, even in our minds, 
they, whether or not the money that was expended and the lives 
and the blood that we have expended there was worth it. It was 
not.
    And whatever we are spending now should be terminated. And 
as soon as we can get those troops out, the better. When you 
find yourself in a bad situation, you don't try to mess around 
and make it a little bit less bad. You just step over and try 
to get into a good situation somewhere else where you can 
accomplish things.
    We have had some heroic efforts on the part of the people 
to make it work. And I think that, especially--we have Stuart 
Bowen, who has tried as Inspector General to make sure that the 
amount of proliferation and abuse of the American tax dollars 
was kept to a minimum. And he did his best. Our military forces 
did their best.
    But it was an undoable job that we were trying to do for an 
ungrateful people. And if they don't have the gratitude for 
what we have done for them, we shouldn't spend a day more on a 
penny more on their behalf.
    Thank you. Who cares about whether their police are good or 
not? Let them determine whether their police are good or not. 
And let them spend the money and make the commitment to do that 
themselves.
    Thank you very much, Mr. Chairman.
    Mr. Chabot. The gentleman's time has expired.
    The gentleman from New York, Mr. Turner, is recognized if 
he would like to make a statement. If not, okay. We will go 
ahead and get to the witness, then.
    Our witness today is Ms. Brooke Darby. Ms. Darby became a 
Deputy Assistant Secretary of State in the Bureau of 
International Narcotics and Law Enforcement Affairs, INL, U.S. 
State Department in March 2011.
    Throughout her career in INL, she has been responsible for 
developing and managing peacekeeping and criminal justice 
capacity-building programs in the Balkans, Afghanistan, Africa, 
and most recently Iraq. Before joining the State Department, 
Ms. Darby served on the National Security Council staff.
    She graduated with honors from Mount Holyoke College, a 
B.A.; and Georgetown University Law Center, a J.D.
    And we welcome you here, Ms. Darby. And, as you know, our 
witnesses receive 5 minutes, as do the members of the panel 
here in questioning the witnesses.
    I would note that our clock system apparently is down, at 
least at your location there. So you won't have a light system 
to look at. So I will tap my gavel here when you have 1 minute 
to go and then a little bit louder or we have an electric 
shocking system if you would like. We won't utilize that. But I 
will do it a little bit louder. And if you could wrap up at 
that point, that would be good.
    And so you are recognized for 5 minutes. Thank you for 
being here this afternoon.
    Ms. Darby. Thank you very much.

  STATEMENT OF MS. BROOKE DARBY, DEPUTY ASSISTANT SECRETARY, 
INTERNATIONAL NARCOTICS AND LAW ENFORCEMENT, U.S. DEPARTMENT OF 
                             STATE

    Ms. Darby. Chairman Chabot, Ranking Member Ackerman, and 
distinguished members, thank you for the opportunity to appear 
today to discuss the Department of State's Police Development 
Program in Iraq. With your permission, I will summarize the 
prepared remarks which have been submitted for the record.
    The Bureau of International Narcotics and Law Enforcement 
Affairs, which I help to lead, assumed the responsibility for 
police development in Iraq as of October 1st, 2011. Our 
program, known as the Police Development Program, or PDP, 
builds on the U.S. military's efforts with the Government of 
Iraq over the last 7 years.
    The military's program utilized hundreds of police advisors 
to generate a police force from scratch and train it for 
counterinsurgency operations. Our much smaller cadre of senior 
police advisors work with Interior Ministry officials and 
police to help Iraq adopt its law enforcement institutions to 
deal effectively with today's complex threats, to develop 
structures and systems that operate with respect for the rule 
of law, and to establish systems and processes that promote and 
protect gender equality and human rights.
    The Department of State launched the PDP on October 1st, 
2011 and currently has 105 U.S. advisors leading the mentoring 
and advising mission in Iraq. Our advisors constitute the most 
senior and experienced team ever deployed by the United States 
Government with an average of 23 years of police service and 
extensive international policing experience. Each assesses 
Iraqi police strengths and challenges and works with their 
Iraqi counterparts on a peer-to-peer basis to develop 
appropriate solutions.
    Since October 1st, PDP senior police advisors have held 
hundreds of meetings with Iraqi counterparts. At this early 
stage, most mentoring and advising needs pertain to management 
tasks required to run a police department, such as strategic 
planning, recruitment, logistics, and managing criminal 
investigations. The Iraqis have also expressed a keen interest 
in gender and human rights, for which we have a dedicated 
advisory team.
    We are developing a rigorous program oversight plan to 
continuously assess our progress. In this vein, we appreciate 
the audit report released by the SIGIR on October 31st, 2011. I 
am pleased to say that we already are implementing the three 
recommendations SIGIR recommended for action.
    To touch on the SIGIR recommendations briefly, first, we 
agree that we need a baseline assessment of Iraqi capabilities 
against which to measure progress. Our updated planning called 
for our senior police advisors to conduct that assessment.
    Since October 1st, they have done just that. And we are 
compiling the results now. We will use the results to ensure 
that our performance metrics are clear and realistic for each 
program element.
    Second, we will continue to adjust our police assistance 
program as planned based on real-time developments on the 
ground. A dedicated INL monitoring and evaluation staff will 
measure progress. And every 6 months, we will do a 
comprehensive program review to assess progress and to identify 
the need for course corrections. We will be able to keep this 
subcommittee informed as those developments and review 
processes occur.
    And, lastly, we fully agree that Iraqi buy-in and ownership 
of this program is critical to its success. We at INL have the 
unique mission of trying to put ourselves out of business by 
offering programs that build sustainable capacities.
    This program grew out of the 2008 U.S.-Iraq Strategic 
Framework Agreement that this subcommittee knows a great deal 
about. Iraqi officials then defined law enforcement needs and 
priorities. Our two governments continue to share the costs 
involved in police development in Iraq.
    Our program will not pay for infrastructure, equipment, or 
operational support for Iraqi police. The Government of Iraq 
will fund these costs directly along with all personnel costs 
for Government of Iraq employees.
    Mr. Chairman and distinguished members, we recognize the 
complexity and importance of this mission. And we and the Iraqi 
Government have committed to bilateral cooperation to help 
realize our common security goals.
    Just today in Iraq, Vice President Biden and Iraqi Prime 
Minister Maliki chaired a session of the U.S.-Iraqi Higher 
Coordinating Committee, which recommenced our partnership. The 
United States is making good on this commitment by implementing 
the Police Development Program hand in hand with the Ministry 
of Interior.
    Security issues remain a challenge in Iraq. However, the 
threat that would result from our failure to follow through on 
the investment the U.S. has already made and for which American 
servicemen and women, diplomats, and others have sacrificed 
their lives is even greater.
    Iraq requires continued international support to remain on 
its path toward modern, professional, community-oriented police 
capable of responding to the difficult security conditions 
present in Iraq today. We absolutely expect that our mentoring 
and advising support for the Iraqi police service will enable 
Iraq's civilian police to secure communities more quickly and 
allow democratic principles of government under the rule of law 
to take hold.
    We appreciate your continued support. And I am pleased to 
answer your questions today and in the future. Thank you.
    [The prepared statement of Ms. Darby follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Chabot. Thank you very much for your testimony. And now 
the members will have 5 minutes. And I recognize myself for 5 
minutes for that purpose.
    The comments by Iraq's senior Deputy Minister of Interior, 
which I referenced in my opening remarks are I think you would 
agree very distressing. Governing, even more so today given the 
current fiscal climate, is about choosing.
    And when viewed in the context of the extraordinary cost to 
this program, I am concerned that the currently formulated PDP 
will not meet Iraqi needs to a degree that justifies the 
expenditures.
    The current plans, for example, involve an extremely 
expensive air wing, for which INL may not even be a priority 
user. According to the SIGIR audit of the $200 million DoS 
requested for Fiscal Year 2011 fourth quarter, ``Only about 12 
percent of the funds are targeted to higher trained and 
deployed police advisers and managers. The remaining 88 percent 
are for life admission support for the advisers and staff, 
security for sites and transportation, and operation and 
maintenance of the helicopter air wing.''
    Would it not be a better use of taxpayer money to retune 
the plans to allow for more trainers in the field at any given 
time? And, additionally, how is INL working with the Iraqi MOI 
to better tailor the program to meet its needs?
    Ms. Darby. Thank you Mr. Chairman.
    Let me start by addressing the issue of Deputy Principal 
Minister of Interior Al-Asadi's comments with respect to the 
PDP. I cannot speak for Minister Al-Asadi.
    Based on the comments I have seen attributed to him, I 
would say that he is frustrated by the high cost involved in 
the security and logistics and support for this program. And, 
frankly, I share that frustration. I wish we didn't have to 
spend so much of our program dollars in supporting the security 
and welfare of our people.
    But if we are going to make the commitment to deploy our 
people to Iraq, we have a similar commitment to ensure their 
safety and their well-being. And at the moment, that is a very 
expensive endeavor.
    And I think as a result of our continued engagement with 
Iraqi police, the Ministry of Interior and improving their 
capabilities, we hope to get to a point where they are in a 
better position to provide that security or system providing 
that security for us and costs will go down. But I can't 
project how quickly that will happen.
    I can tell you that I was out in Iraq about 2 weeks ago. 
And I met with Deputy Minister Al-Asadi. And we discussed his 
comments. And he affirmed it to me that he very much supports 
the PDP. He welcomes the advice and guidance that it is going 
to provide.
    He subsequently said the same thing to our police advisers 
at their headquarters in Baghdad, reemphasizing that Iraq needs 
the support of our advisers to guide and mentor what is a 
fairly young Iraqi police force, to professionalize it, to 
modernize it.
    And his comments, frankly, echo the comments that our 
advisers are hearing. Our advisers have already begun to deploy 
and engage with their Iraqi counterparts. And the reception 
that they have received is very welcoming, very receptive. And 
in many cases we have even had Iraqi counterparts visit our 
advisers at our facilities.
    I think that is a strong indication of the support that 
they have and the value that they see in the assistance that we 
were providing.
    Mr. Chabot. He didn't deny the comments, did he? He didn't 
deny the comments? He made the----
    Ms. Darby. He didn't directly deny the comments.
    Mr. Chabot. All right. SIGIR's PDP audit made three 
explicit recommendations, namely the completion of an adequate 
current assessment of the Iraqi police forces, and more 
comprehensive and detailed program plan, and a written 
agreement with the Government of Iraq ensuring its financial 
participation in agreement with the program's scope.
    Has DoS followed through on these recommendations? And, if 
not, can we expect DoS to do so and when?
    Ms. Darby. Yes, sir. We are following through on those 
recommendations. And I would just like to say at the outset 
that we very much appreciate the insights and observations and 
recommendations of the audit community: SIGIR, GAO, our own 
Office of Inspector General. We take those comments very 
seriously. And we already have begun to implement the three 
recommendations that SIGIR has identified.
    Mr. Chabot. Okay. Thank you.
    I think my time has expired or there's some weirdness 
happening with the clock here. I am going to go ahead and 
recognize the ranking member, then, for his 5 minutes.
    Mr. Ackerman. I am just a little bit dismayed with this 
whole thing. We are going to screw this up again, aren't we?
    Ms. Darby. Sir, I take my responsibility for U.S. taxpayer 
dollars very, very seriously. I also take our mission in Iraq 
very seriously.
    Mr. Ackerman. Have we been getting our money's worth 
lately?
    Ms. Darby. Sir, this program is only 2 months in execution.
    Mr. Ackerman. I mean in the----
    Ms. Darby. We have been monitoring it very closely to 
ensure that we do get results. And we have put in place a 
number of accountability measures to make sure that this 
program is carefully monitored and observed.
    We have an Assistant Chief of Mission in Iraq, Ambassador 
Michele Sison, a two-time ambassador, who oversees the Iraq 
police program.
    Mr. Ackerman. Well, when will they be ready to stand up 
without us?
    Ms. Darby. I wish I could answer that question.
    Mr. Ackerman. Then why are we spending money if we don't 
have the answer? You know, this is turning into what happens 
after a bar mitzvah or a Jewish wedding. It is called a Jewish 
goodbye. Everybody keeps saying goodbye, but nobody leaves.
    I am told there was this song during World War I called 
``We're Here Because We're Here,'' and the words were, ``We're 
here because we're here because we're here because we're here. 
We're here because we're here.'' I think it just went on. There 
were no other words.
    I mean, there has to be a time when we're no longer going 
to be there. And I don't know if $100 billion, if $900 million, 
if $800 zillion makes that time come faster, or sooner, or what 
you get for more money being there. So if we don't know how 
long it is going to take, I am going to stop paying the tuition 
when my kid's in his 19th year at college.
    Give me some hope. Make up a year.
    Ms. Darby. Sir, I have been engaged in international police 
development for about 15 years.
    Mr. Ackerman. 15 years. That is good. At $900 million a 
year?
    Ms. Darby. The situation we face in Iraq is that for 25 
years, for a generation, police in Iraq were instruments of 
repression. Respect for human rights, professionalism in 
discipline, gender rights had no place in policing in Iraq. 
Iraq needs our help to modernize and become a respected, 
effective police force.
    Mr. Ackerman. And in your opening statement, you said they 
have shown an interest in that.
    Ms. Darby. They have, indeed, sir.
    Mr. Ackerman. What does that mean, ``They have shown an 
interest in that''?
    Ms. Darby. They are seeking out our help in developing 
plans to implement that in Iraq.
    Mr. Ackerman. Can we send them a book?
    Ms. Darby. No. We actually have our advisers working right 
now at the Ministry of Interior's request on a strategic plan 
on human rights and gender issues and how to incorporate those 
into the Iraqi Government's administration.
    Mr. Ackerman. Is this a human rights and gender issue 
project, rather than the national security interest of the 
United States, to have them stand up to protect the world 
against whatever?
    Ms. Darby. That is also an element of the program, sir, but 
I think that having an Iraqi citizenry that goes to the police 
to resolve their disputes and has confidence that those police 
will act in a professional, respectful way that respects their 
human rights,----
    Mr. Ackerman. What is Iraq----
    Ms. Darby [continuing]. Even if they don't turn to militias 
groups----
    Mr. Ackerman. Okay. If that is what this is supposed to be, 
that is pretty admirable if we are flush. In the list of 190 
countries in the world, where does Iraq stand in that human 
rights and gender issue? Are they in the middle? Are they in 
the bottom quarter? Are they in the top 10 percent of the best?
    Ms. Darby. I am in no position to offer that ranking. I 
don't have----
    Mr. Ackerman. Why are we doing human rights and gender 
issues in Iraq and not Botswana?
    Ms. Darby. Iraq, and stability in Iraq and security in Iraq 
is very much in the U.S. national security interest. It is 
important to us to have a stable and secure partner in the 
region. It is important to us to have a partner on combating 
the types of complex threats we face as a----
    Mr. Ackerman. How important is it in terms of dollars? 
Let's assume the rate is constant and it is $900 million a 
year.
    Ms. Darby. Sir, we have already made an investment.
    Mr. Ackerman. $1 billion bucks a year for how many years?
    Ms. Darby. We have already made an investment of billions 
of dollars to date.
    Mr. Ackerman. ``We're here because we're here because we're 
here because we're here.' We have already done it. So we are 
doing it again.
    Ms. Darby. Our program is very different from the U.S. 
military's program. The U.S. military had to focus primarily on 
generating a police force from the ground up.
    Mr. Ackerman. Is it possible this will take us 8 years?
    Ms. Darby. I am not prepared to put a time limit on it.
    Mr. Ackerman. 4 years?
    Ms. Darby. But, sir, I will say that we will be reporting 
on progress.
    Mr. Ackerman. We are spending taxpayers' dollars here at a 
rate of $900 million a year if it remains constant.
    Mr. Chabot. The gentleman's time has expired, but you can 
answer the question if you can answer the question.
    Ms. Darby. Yes. We will be assessing the progress.
    Mr. Ackerman. I know when my time has expired.
    Ms. Darby. We will be assessing the progress that we and 
the Iraqis are making toward mutually agreed objectives and 
goals every 6 months. We will have a dedicated monitoring and 
evaluation staff who will be assessing it on a more regular 
basis.
    We look forward to reporting to the committee, the 
subcommittee on what we have found as a result of these reviews 
and what it means for the program going forward. And we look 
forward to that dialogue with you.
    Mr. Chabot. Thank you. The gentleman's time has expired.
    Mr. Ackerman. Thank you. I apologize for subjecting you to 
my singing.
    Mr. Chabot. The gentleman's apology is accepted.
    The gentleman from Pennsylvania, Mr. Marino, is recognized 
for 5 minutes.
    Mr. Marino. Thank you, sir.
    Good afternoon, and thank you for being here. Ms. Darby, 
your credentials are impeccable, and your work experience is 
beyond reproach. And I commend you. I don't know if you drew 
the short straw for coming in here and someone else just didn't 
want to do this, but my hat is off to you.
    I am going to get very serious, right to the point. And you 
correct me if I am wrong. There are billions and billions of 
dollars missing in Iraq that the Iraqi Government cannot 
account for. Whether those funds are a mixture of U.S. and 
Iraqi or simply U.S. or Iraqi remains to be seen because we are 
not getting an answer. Maliki just doesn't want to answer 
questions, takes a position that he is offended when we ask 
questions like this.
    I understand that this government, the Iraqi Government, 
implemented legislation that gave absolute immunity to the 
government officials for the loss of this money, knowing that 
it was stolen by someone or a group of individuals. They 
actually granted themselves immunity from criminal prosecution 
and civil prosecution for accounting for this money. And I 
understand that one particular individual made it quite clear 
that he actually walked away with $9 million.
    How can we continue to fund a government that works under 
that premise where they are granting their own corrupt 
government officials immunity from prosecution from stealing, 
perhaps from the United States and certainly from the Iraqi 
people? Can you give me some insight on that, please?
    Ms. Darby. Congressman, I am sorry that that falls outside 
the gambit for which my bureau is responsible, which is police 
development and justice assistance. I do know we also work on 
some of the anti-corruption programs, and I can tell you that 
there have been a few positive developments.
    I think there is still a way to go, certainly, in 
addressing corruption issues in Iraq, and we have been working 
with institutions that are designed to assist in that. But 
there was a positive step recently in that the Parliament 
enacted legislation that now prevents ministers from preventing 
the prosecution and investigation of their personnel for 
corruption. So I think we look at corruption in Iraq in 
incremental steps.
    And with respect to missing dollars, I am afraid I can't 
answer that question directly, but----
    Mr. Marino. Well, I am not asking you to directly answer 
the missing dollars, where it is at. I mean, the government 
won't respond to it. So, you know, how would we know that?
    But I was a prosecutor for 19 years at the state and 
Federal levels. I have a basic fundamental problem with 
trusting an entity or someone that I know is a crook and a 
thief and really has very little interest on appearance about 
what happens to the people of that country.
    I would hope that the State Department also has that 
concern and also keeps that fact that we are not getting 
information from them, and there has been literally billions of 
dollars stolen and unaccounted for in the back of your mind 
when dealing with these people.
    I thank you for your response.
    Ms. Darby. Could I just respond to that briefly?
    Mr. Marino. Please go ahead.
    Ms. Darby. Thank you very much for your comments.
    I would just like to emphasize that none of the money that 
is associated with the Police Development Program goes to the 
Government of Iraq.
    Mr. Marino. I understand that.
    Ms. Darby. Thank you.
    Mr. Marino. Okay. Thank you.
    Mr. Chabot. Thank you. The gentleman yields back his time.
    Let's see--the gentleman from New York, Mr. Higgins, I 
believe is next.
    Mr. Higgins. Thank you, Mr. Chairman.
    The Police Development Program under the State Department 
is not more than 2 months old. Does this include a current 
status as to what shape the Iraqi police apparatus is in today? 
I mean, where are we at? And what is the baseline here?
    Ms. Darby. Our advisers right now--we began deploying our 
advisers this summer. And one of the first tasks we assigned to 
them was conducting a baseline assessment of Iraqi 
capabilities, which we view as essential to refining the 
objectives we have for this program and the performance metrics 
that we establish for this program and against which we will 
measure and evaluate progress.
    This was an issue that was discussed in the SIGIR report as 
one of the recommendations of the SIGIR report. I came into 
this job in May, and I certainly wish that we had had an 
assessment that was completed before we launched the PDP.
    Mr. Higgins. Right.
    Ms. Darby. There was an effort. We did issue a grant to an 
outside entity to conduct such a baseline assessment. And for a 
variety of reasons, they were unable to do so. By the time that 
became apparent, we already had our----
    Mr. Higgins. Claiming back my time, why weren't they able 
to do so? I mean, that is pretty important here.
    Ms. Darby. I am sorry?
    Mr. Higgins. Why weren't they able to do what they were 
asked to do?
    Ms. Darby. I think it largely had to do with the difficulty 
of moving around in Iraq and the length of time it took to get 
appointments with the Iraqi.
    Mr. Higgins. So lack of cooperation?
    Ms. Darby. I think it was also some logistical and security 
issues that made it hard for them to get around.
    Mr. Higgins. Okay. I mean, what is the sense of things? I 
mean, is it a country that has a police force that is, you 
know, functioning in certain places, like Baghdad, not in 
Ramadi? I mean, you know, what is the anecdotal assessment of 
the strength of the Iraqi police force today?
    Ms. Darby. I will be able to answer that question a lot 
better in about a month's time, when we have completed our full 
review of the assessments that our advisers have done. But I 
would say in general that there is a sense that in terms of 
very basic police skills, the U.S. military has done an 
excellent job in working with the Iraqis over the course of the 
last 7 years to generate a police force from scratch and attain 
a basic level of capability.
    Mr. Higgins. What is that basic level of capability?
    Ms. Darby. They can basically police. They can provide 
presence on the streets. They can take complaints.
    Mr. Higgins. Do they have the confidence of the people on 
the streets?
    Ms. Darby. I think it is a very mixed bag, and I think that 
is why we are working as part of this program to build. That is 
actually one of the major subject areas of the program, is to 
build relationships between the Iraqi police and the community 
they serve and also to develop accountability mechanisms within 
the Iraqi police. And this is an area where they acknowledge 
that they need help.
    They need a code of conduct for their police. They need a 
discipline system that works. They need to be able to 
demonstrate to the Iraqi people that they have taken action 
against police officers who have not performed their jobs and 
who have, you know, committed crimes or committed human rights 
abuses.
    Mr. Higgins. Yes, but those things are pretty fundamental, 
whether you are policing in Baghdad or Buffalo.
    Ms. Darby. Absolutely.
    Mr. Higgins. Others have touched on this as well. You know, 
since 2003, we have spent $8 billion training the Iraqi police, 
approximately $1 billion a year. The Inspector General's review 
indicates that about 12 percent of that was spent for actually 
training police and 88 percent for overhead costs, including 
paying for security contractors.
    You know, we have spent $63 billion in reconstructing Iraq. 
We are scheduled to leave there at the end of the year. The 
past performance doesn't inspire great confidence in the 
ability of anybody in changing fundamentally the situation in 
Iraq.
    Give me some words of encouragement as to what has changed 
on the ground. You know, I think that is very important here.
    Ms. Darby. I think we are entering a new day. I think what 
the U.S. military was able to do with Iraq was some of the 
basics. But the basics are not enough to sustain an effective, 
respected, professional police force. They need a lot of 
advanced and specialized training. They need systems and 
structures that will enable them to be a sustainable force, 
everything from disciplinary systems to be able to handle their 
logistics, to be able to handle their budgeting, making sure 
that their forces in the field have----
    Mr. Higgins. Yes.
    Ms. Darby [continuing]. The equipment that they need to be 
basically responsible.
    Mr. Higgins. Yes. Let me just claim back because I think I 
am out of time. But I just wanted a final comment. All of this 
would be comforting and perhaps even confidence-inspiring if 
there hadn't been a past. But there is an immediate past that 
demonstrates pervasive corruption, a lack of confidence, a lack 
of discipline, a lack of a willingness to provide appropriate 
oversight to ensure that U.S. taxpayer dollars are being spent 
in an appropriate manner.
    So, I mean, again, you have been sent over here, and you 
are in a tough spot. I understand that. But this is a very 
steep hill to climb given the past performance here. And 
everything, you know, associated with Iraq, be it its 
reconstruction, its political reconciliation, all those 
existential issues that are fundamentally important to an 
evolving, functioning society are lacking.
    And, you know, it doesn't give us a sense that, you know, 
there is a lot of opportunity here to see something 
dramatically different other than what we have already 
experienced. And what we have already experienced isn't good. 
It is not bad. It is awful. It is awful.
    So I will yield back.
    Mr. Chabot. The gentleman's time has expired.
    The gentleman from California, who is also the chair of the 
Oversight and Investigations Committee of Foreign Affairs 
Committee, Mr. Rohrabacher, is recognized for 5 minutes.
    Mr. Rohrabacher. Thank you very much.
    And I have learned a lot today about Jewish weddings that I 
didn't know before. And it seems to me that Jewish weddings are 
much more fun than the Baptist weddings that I have been to, 
where they didn't drink and they didn't dance, and it was just 
getting rid of the kids, you know? So thank you for my friend, 
Mr. Ackerman.
    Mr. Ackerman and I weren't always on good terms. I argued 
the case for supporting President Bush in his efforts in Iraq 
with Mr. Ackerman numerous times, and I was wrong. Thank you, 
Mr. Ackerman. This has been a waste of our lives and our money.
    Just the very program we are talking about, this isn't the 
first $900 million that we have spent on trying to help them 
build their police. In fact, the Department of Defense has been 
spending money and trying to help them build their police since 
2003. If my figures are correct, we have spent about $7 billion 
by the Department of Defense, and they apparently have failed, 
perhaps for the same reasons that this program will fail, if 
you end up spending 12 percent on the actual training and 88 
percent of the money that is being allocated is actually going 
to provide for the people who are supposed to do the training, 
you know, so that they can get along in that country.
    Let me just say that I have in my life gone through several 
major upheavals such as this. And I got a very close look 
during the Vietnam War, and I was dismayed at that time. I 
remember going home from Hawaii--I was not in the military 
there. I was doing a part of a political operation in Vietnam, 
but I learned enough to know that we were going to lose. I 
mean, I just could see it.
    I was 19 years old. You see gore and you see incompetence 
and you see corruption, all put in the same package, and it 
does affect an idealism of a 19-year-old. I will tell you that 
much.
    And I hate to think what these young men and women that we 
have been sending over to Iraq are going to think when they 
come home and all the ones who know who they have lost. And for 
what? For a country that is run by a man who despises us: Mr. 
Maliki. People have no gratitude whatsoever for the bloodshed 
and the treasure that we have given them and provided them.
    And, again, I am not sure that we could succeed in Vietnam 
or Iraq. You had better choose your fights. I think hopefully 
we will learn we have got to choose our fights in the future so 
that we are not wasting people's lives.
    And, like I say, it has not been because we haven't had 
dedicated people. I mean, you know, Stuart Bowen has been in my 
office so many times trying to make sure that I know what was 
going on and the hard work that they have done. And he has had 
convictions and saved the taxpayers money.
    But, you know, you can't do what is the undoable, and that 
is trying to run somebody else's country for them, when they 
have such dramatic differences in culture and in desires.
    This police training program, that what you say--and, by 
the way, again, that figure of 12 percent training, that is not 
just for police training. I would like to suggest to my friends 
on the other side of the aisle who are much more open to the 
idea of benevolent and foreign aid to try to help others almost 
all the aid programs come down to that, come down to 12 percent 
going to what you really want it to go to. And 88 percent is 
going to make sure that the people there have drivers, great 
cars, wonderful accommodations. And, even with the NGOs, you 
will find them living in very fine houses and out in their SUVs 
and being taken care of like royalty in that country.
    We need to make sure that we pick where we are going to be 
participating and helping. And we obviously have not learned 
our lesson yet in Iraq because you are asking us to spend 
another $900 million. And I hope that someone is listening 
because I wasn't listening when I debated Mr. Ackerman years 
ago, and I should have been, on this.
    So I won't ask you to comment on that, but I just thought I 
would throw that in.
    Thank you, Mr. Chairman.
    Mr. Chabot. Will Mr. Ackerman have an opportunity to 
comment? [Laughter.]
    I thank the gentleman for his remarks. The gentleman's time 
has expired.
    The gentleman from Virginia, Mr. Connolly, is recognized 
for 5 minutes.
    Mr. Connolly. Thank you, Mr. Chairman.
    And I want to congratulate my friend from California. It is 
a rare moment here in Capitol Hill that somebody says, ``I 
should have been listening. I wish I had. And hat's off to'' 
somebody else. I think that is to your credit, Mr. Rohrabacher, 
that you are willing to do that. And I thank you as a 
colleague. I wish more of us had the capacity to do that around 
here.
    Madam Deputy Assistant Secretary, welcome. Is it your 
testimony here today that the State Department is fully 
committed to transparency and accountability with respect to 
any and all programs it has any oversight or responsibility for 
in Iraq?
    Ms. Darby. We take our responsibility for accountability 
and cooperation with all of the audit entities, with Congress 
very, very seriously.
    Mr. Connolly. No, ma'am. That was not my question. Is it 
your testimony that you are fully committed to transparency and 
accountability with respect to those responsibilities?
    Ms. Darby. We are absolutely committed to accountability.
    Mr. Connolly. Full transparency, full accountability?
    Ms. Darby. I am not sure how you define that.
    Mr. Connolly. Well, I guess I am not sure why you avoid the 
word. That was my question, and you have ducked it three times. 
Are we or are we not? Is the State Department fully committed 
to transparency, full transparency and accountability, to the 
taxpayers of the United States and the people we are trying to 
serve in Iraq or not?
    Ms. Darby. We absolutely are accountable to the taxpayers, 
to our Congress, and to all of the oversight bodies who are 
looking into how we are spending our dollars, whether our 
programs are achieving success. We are absolutely----
    Mr. Connolly. All right. I will sort of kind of take that 
as a commitment.
    Are you familiar with the August correspondence between the 
legal adviser to the Department of State and the IG's office, 
SIGIR?
    Ms. Darby. I am.
    Mr. Connolly. You have reviewed the actual letters?
    Ms. Darby. I have.
    Mr. Connolly. Now, is it in your view consistent with that 
commitment, full commitment? It looks, frankly, to a layman, 
like myself, that, frankly, that the State Department is 
splitting hairs to avoid producing documents to SIGIR using the 
bureaucratic turf argument that this goes beyond your scope 
and, therefore, you are on our platform and we are not going to 
cooperate when you do that, as opposed to let's see how we can 
work out a cooperative arrangement to make sure you have 
everything you need to get at the truth?
    So given your commitment here today to full accountability 
and transparency, I would like you to respond to the 
observation that this correspondence doesn't look that way. It 
actually looks like the State Department is, you know, 
stonewalling.
    Ms. Darby. Congressman, thank you for that comment. I will 
say that, you know, as I have said already, we very much value 
the oversight bodies and the advice and guidance and 
recommendations that they provide to us and service to the 
American taxpayer and to the Congress.
    The issue of coordination of requests from our oversight 
bodies; in particular, SIGIR, is not handled by my office. So I 
am not in the best position to comment on overall issues of 
jurisdiction and coordination. As you noted, our legal 
adviser's office is very much involved in that.
    I do know, however, that there has been a series of 
meetings and dialogues between the Department and with SIGIR, 
in particular, to find ways to improve cooperation and 
coordination, including the appointment of a single point of 
contact. and the Deputy Chief Financial Officer, I believe, is 
the individual.
    Mr. Connolly. I have to reclaim my time, because, as you 
know, we have limits on time. But I appreciate your response. 
And I certainly appreciate the fact that, look, there are going 
to be turf issues. There are going to be differences of 
opinion. And I certainly welcome and I am sure SIGIR does as 
well your reiteration of the assurance that you are looking for 
ways to actually cooperate because this correspondence looks 
like a lawyer who is looking for ways not to cooperate and 
justify it legally. And I just mentioned that to you because it 
is not a reassuring set of correspondence, as far as I am 
concerned.
    I want to ask you. The senior Deputy Minister of Interior, 
Adnan al-Asadi, referred to the PDP program and said it was a 
hopeless waste of money. Why would the Deputy Minister of 
Interior of a country we are trying to help say such a thing? 
And are those sentiments the State Department has heard from 
other senior officials of the Iraqi Government?
    Ms. Darby. I can't speak to what may have led Principal 
Deputy Interior Minister Al-Asadi to make those remarks. As I 
indicated before, I did ask him about those remarks when I was 
in Iraq about 2 weeks ago. And he reiterated Iraq's need for 
and interest in PDP and, in particular, the advising and 
mentoring that we are providing to Iraqi police. And he 
reiterated that point. He made a special trip over to our 
headquarters of our police program in Baghdad to reiterate that 
point to our advisers personally. And he indicated he had 
reviewed their CDs.
    And I think that the interaction that our advisers have had 
with their senior Iraqi counterparts speaks volumes and the 
positive response they have received and the real desire and 
quest for more help, guidance, and assistance speaks well to 
the prospects for success for this program.
    Mr. Connolly. If the chairman would allow a very simple, 
direct follow-up?
    Mr. Chabot. The gentleman is recognized for 1 additional 
minute.
    Mr. Connolly. I thank the chair so much for his 
graciousness.
    So is it your testimony that you believe the PDP is, in 
fact, an efficacious program, it is working?
    Mr. Chabot. Sir, we are 2 months into the program. I am 
optimistic about its chances for success. And we have built in 
accountability and review measures so that we will be able to 
constantly monitor and assess whether we are having an impact, 
make corrections if we need to, and have an ongoing dialogue 
with the Congress about what success we are achieving and where 
we are not achieving it and the direction we see going forward.
    Mr. Connolly. Thank you very much. Thank you, Mr. Chairman.
    Mr. Chabot. Thank you. The gentleman yields back.
    The gentleman from New York, Mr. Turner, is recognized for 
5 minutes. And following the gentleman from New York's 
questions, we will move to the second panel. The gentleman is 
recognized.
    Mr. Turner. Thank you, Mr. Chairman.
    How has your day been going so far, Ms. Darby?
    Ms. Darby. Just great.
    Mr. Turner. Good. I am delighted. Maybe these will be easy 
ones.
    In January, we will be leaving a lot of civilians there: 
Advisers, NGOs, et cetera. Are there any strings or 
contingencies built into these plans to protect our citizens 
from some of the eventualities that we are sure will be coming 
up? They will be attacked. They will be in self-defense. We 
will be seeking immunity. There will be kidnappings, et cetera, 
et cetera. Is this in the thinking and something we should 
perhaps put there if it isn't?
    Ms. Darby. Sir, I can only speak to the Police Development 
Program, not to all of our citizens in Iraq. And I think 
probably diplomatic security is in the best position to answer 
the details of your questions, but I will say that we obviously 
take the security of the personnel that we deploy to Iraq very, 
very seriously.
    We are working very closely with a regional security 
officer, who is the lead for our Diplomatic Security Bureau, in 
the Country of Iraq to constantly monitor and assess the way 
that we operate the program to promote the greatest security 
for our personnel.
    Mr. Turner. Okay. Thank you. I yield back.
    Mr. Chabot. The gentleman yields back his time.
    We want to thank you very much, Ms. Darby, for your time 
here this afternoon. And we are going to move on to our second 
panel now. Thank you.
    Ms. Darby. Thank you very much, sir.
    Mr. Chabot. As the two members of the second panel 
approach, I will go ahead and introduce them. First we have 
Stuart W. Bowen, Jr. Mr. Bowen was appointed Inspector General 
for the coalition, provisional authority, in January 2004 and 
has served as the Special Inspector General for Iraq 
Reconstruction since October 2004.
    As the taxpayers' watchdog in Iraq, Mr. Bowen oversees more 
than $63 billion in U.S. funds, including the Iraq Relief and 
Reconstruction Fund, the Iraq Security Forces Fund, the 
Economic Support Fund, international narcotics control and law 
enforcement funding, and the Commander's Emergency Response 
Program. Mr. Bowen's public service career includes service to 
President George W. Bush as Deputy Assistant to the President, 
Deputy Staff Secretary, Special Assistant to the President, and 
Associate Counsel.
    He holds a B.A. from the University of the South and a J.D. 
from St. Mary's Law School.
    And we welcome you here this afternoon, Mr. Bowen. Is Mr. 
Bowen here? Oh, okay.
    And then our other panel member is Glenn D. Furbish. Mr. 
Glenn Furbish is the Senior Audit Manager in the Office of the 
Special Inspector General for Iraq Reconstruction. Mr. Furbish 
has served as a senior audit manager with the Office of the 
Special Inspector General for Iraq Reconstruction since May 
2005.
    Prior to this, Mr. Furbish spent 28 years with the U.S. 
Government Accountability Office as a senior program analyst 
for defense issues. And before that, Mr. Furbish spent 6 years 
in the U.S. Army as an infantry officer and a helicopter pilot.
    He holds a B.S. from George Mason University in accounting.
    We want to thank you especially for your service to our 
country there, Mr. Furbish.
    And, Mr. Bowen, while you were gone, I said a whole lot of 
nice things about you. So if you are prepared, Mr. Bowen, we 
can go ahead and begin with you first. You are recognized for 5 
minutes.

   STATEMENT OF MR. STUART W. BOWEN, JR., INSPECTOR GENERAL, 
       OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR IRAQ 
RECONSTRUCTION, ACCOMPANIED BY MR. GLENN D. FURBISH, ASSISTANT 
 INSPECTOR GENERAL FOR AUDITS, OFFICE OF THE SPECIAL INSPECTOR 
                GENERAL FOR IRAQ RECONSTRUCTION

    Mr. Bowen. Thank you very much, Mr. Chairman, Ranking 
Member Ackerman, members of the committee.
    I am honored to be joined by Glenn Furbish, my Assistant 
Inspector General for Audit, who has served me faithfully for 
years, both here and in Iraq.
    And on a personal point, I am also especially blessed that 
my mother is here this morning, too, in the audience.
    Mr. Chabot. Excellent.
    Mr. Bowen. So welcome her.
    Today's hearing addresses a crucial issue, as the previous 
panel and questions identify. And that is, what is the proper 
expenditure of another $1 billion in Iraq? And what will it 
accomplish? And that was the core purpose of our audit, which 
we began last April, struggled to execute through the spring 
and early summer, forcing me eventually to do something very 
unusual, send an obstruction letter to Secretary Clinton about 
the stonewalling that occurred in the course of the audit.
    That had the effect of breaking the logjam and getting us 
enough information to produce the audit that we issued on 
October 24th. It addresses, really, more than $1 billion in 
potential expenditures because the Congress has already 
approved and appropriated over 700 million. State has in its 
possession now between 200 and 300 million and has a pending 
request for 887 million. Do the math. That is more like $1.2 
billion.
    The program just began about a month ago. And it is 
impossible to ascertain the nature of the progress thus far 
given its young state.
    But I did visit with Ambassador Sison when I was in Iraq on 
my 31st trip 2 weeks ago. And she indicated to me that they 
embraced our recommendations from our audits. And we are 
implementing the assessment, as required.
    And I met with Deputy Secretary Burns 2 days ago. And he, 
similarly, embraced both what we have had to say and the need 
to address the weaknesses.
    The latest audit is just the latest in a series of audits 
we have been doing on police training since 2007. And they have 
echoed similar problems: Weak management controls, weak 
oversight. And, indeed, our audit of a year ago on this issue 
recommended that an assessment be done of the police forces in 
preparation for transition. It wasn't done. That, curiously, 
also echoed a recommendation from a joint planning team from 2 
years ago that went to Iraq and said, ``Well, we have got to 
get a baseline.'' It obviously, as we know, wasn't done.
    All the things that we found in our audit were that there 
wasn't a sufficiently comprehensive and detailed plan on what 
the state intended to accomplish through the PDP; that there 
wasn't sufficient transparency in the budgeting; that the 
amount of funds that had been requested were probably more than 
what is now a scale-back program down from 192 trainers to 115 
today; and that, as we have talked about, as the panel has 
discussed, Iraqi support was limited or even questionable.
    We made three recommendations: Do the assessment again, 
develop a comprehensive plan that has metrics and milestones 
that demonstrate what is going to be accomplished, what goals 
are there;--the committee has already addressed that--and that 
we obtain, the State Department obtain, written assurances 
pursuant to existing regulations adopted by the Congress from 
Iraq on their contributions, certainly at least to that program 
money.
    Currently, as we have heard, there are about 100 advisers 
on the ground over there. And they have got 200 to 300 million 
in the bank. They estimate the expense for the program is 500 
million. You do the math. Eight hundred eighty-seven million 
may not be necessary for next year as you look at it.
    But, as was also mentioned by the committee, this is a 5-
year program. It is envisioned to carry on perhaps at, what, 
$800 million to $1 billion a year for 5 years. So we are not 
talking about one. We are talking about potentially $5 billion.
    Iraqi buy-in remains an issue. They haven't provided their 
contribution commitment. When I met with Deputy Minister Al-
Asadi 2 weeks ago and asked him, you know, ``Have you withdrawn 
from your comments that you made to us a month ago?'' he said, 
``Well, they are still on my Web site. They are still posted.'' 
And he didn't indicate to me that he would step back, although 
he said, ``We welcome the support.''
    And so, with that, you know, I think it is deserving of 
careful scrutiny. I think the committee is demonstrating that 
today.
    And, with that, I look forward to your questions. Thank 
you, Mr. Chairman.
    [The prepared statement of Mr. Bowen follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Chabot. Thank you very much, Mr. Bowen.
    And I will now recognize myself for 5 minutes. I had some 
very probing questions, was really going to put you on the spot 
here this afternoon. But since you brought your mother, I can 
get a little more genteel.
    Mr. Bowen. Thank you.
    Mr. Chabot. All kidding aside, we just want to get the 
appropriate responses out there.
    First of all, SIGIR documented in its PDP audit what it 
believes constitutes continued obstructions to the execution of 
SIGIR's statutory authority to conduct oversight on the part of 
DoS. To what do you attribute this resistance?
    In the correspondence between DoS and SIGIR, DoS expounded 
a view that resources and programs which are shared by both the 
PDP and Embassy Baghdad do not fall under SIGIR's 
jurisdictions. Do you face some more objections in other 
audits? Could you address that?
    Mr. Bowen. No, we haven't faced similar objections other 
than in one prior instance with the State Department regarding 
an audit we wanted to carry out of Triple Canopy, a major 
defense security contractor in country. And we withdrew our 
audit 3\1/2\ years ago because the State Department IG 
announced an audit that was virtually identical. So there was a 
rational basis for us not pursuing it.
    The State Department IG is not auditing the Police 
Development Program. And the single biggest largest program in 
the United States is funding next year in Iraq. And, thus, it 
is crucial for the Congress to know the truth.
    Mr. Chabot. Well, SIGIR on numerous occasions cites plans 
and documents which were not provided. Do you believe these 
documents exist and were not provided because of jurisdictional 
disagreements or, alternatively, do you think that the level of 
information SIGIR received is reflective of the state of 
planning which actually exists or existed in the INL? And have 
there been any further developments since the audit was 
completed?
    Mr. Bowen. Some of those documents did exist. Yet, I think 
also some were developed in the face of our requests. Indeed, 
as we asked for plans and a comprehensive plan about what did 
the PDP constitute, we received a PowerPoint slide presentation 
of about 23 slides.
    Later, further supplementation was more detailed, but it 
appeared it had been developed subsequent to our request. On 
the other hand, we never got the Fiscal Year 2011 spend plan, 
which certainly existed.
    Mr. Chabot. Thank you.
    Mr. Bowen, in your testimony, you observed that ``In August 
2010, INL received $450 million for start-up costs and $200 
million for Fiscal Year 2011 fourth quarter operating costs.''
    According to a spend plan, INL expected to use most of 
these funds to upgrade hub and aviation facilities and purchase 
rotary wing aircraft. However, INL has suspended plans to 
operate dedicated aircraft for the PDP.
    If not for INL, what do you believe the money was spent 
for?
    Mr. Bowen. Well, I believe part of the purposes of the air 
wing, the State Department's air wing in Iraq was for the 
movement of the senior officials and others around the country 
on missions and for DV visits as well.
    As you pointed out, that particular aspect of the program 
was suspended, which raises a question about the 887 million 
request since it embraces the airway.
    Mr. Chabot. Okay. Thank you.
    As you note in your testimony,

          ``A cardinal rule for successful international 
        development programs is that the host government must 
        be fully engaged in and supportive of program planning 
        and execution. As SIGIR has found from 7 years of 
        oversight work in Iraq, programs must be geared to 
        indigenous priorities, capacities, and needs.
          ``Senior officials from Iraq's Ministry of Interior 
        told SIGIR this fall that they are ready and willing to 
        work with INL on the PDP, but they also noted that the 
        program's merits are impossible to assess as of yet, 
        that they were not sufficiently consulted on the 
        program's scope, and that they are withholding judgment 
        until they see what benefits come from it.
          ``In an October meeting with my deputy, Senior Deputy 
        Minister of Interior Adnan al-Asadi, said, `What 
        tangible benefit is there to my ministry of 650,000 
        people who are in the midst of massive security 
        challenges on the streets of Iraq? Very little.' ''

    What is your prognosis for Iraqi support, financial or 
otherwise, for the PDP?
    Mr. Bowen. Well, I think they are not turning their back on 
$1 billion. They don't shoot gift horses, do they? They are 
willing to accept the $62 billion later. The Iraqis have not 
said no to any U.S. dollar sent to Iraq to date. And they are 
not saying no to these.
    The issue, though, is, as the committee has already 
addressed, is this wisely spent? And will it advance a goal 
that needs to be met that mainly the internal security of Iraq. 
And while Minister Al-Asadi is welcoming at this juncture of 
his support, at first blush, when he was first engaged 
seriously on the topic, he demurred and perhaps spoke off the 
cuff regarding his, at best, curiosity about why we were 
spending so much money on an issue.
    That President Talibani was addressed 4 days ago in a 
public statement. He said, ``Iraq is capable of providing its 
own internal security.''
    Mr. Chabot. Okay. Thank you very much. My time has expired.
    Gentleman from New York, Ranking Member Ackerman, sir, an 
extra 5 minutes.
    Mr. Ackerman. Do these programs ever work?
    Mr. Bowen. They work as best as they can. It depends on 
defining goals. And you raise a----
    Mr. Ackerman. I can fly as best I can, too.
    Mr. Bowen. Yes, Mr. Ackerman, your implicit point is well-
taken. We did train 450,000 Iraqis to be police across the 
country. We equipped them. They are better than they were 
before. But what we uncovered in our audit of a year ago, as 
DoD managed this program, we discovered that there weren't 
sufficient metrics or an over-arching strategic plan to judge 
whether they worked.
    Mr. Ackerman. How much did we spend on that? That didn't 
work.
    Mr. Bowen. $8 billion.
    Mr. Ackerman. $8 billion that didn't work. So what are the 
lessons we learned?
    Mr. Bowen. Be careful with the taxpayers' money in 
stabilization operations.
    Mr. Ackerman. Okay. How do we apply that to the new 
management so they know how to apply it?
    Mr. Bowen. Well, I don't know the answer to that question, 
but I would say, as we apply it to this, we should better 
assess what the Iraqis' real needs are, which is why a year 
ago, we said, ``Do an assessment.'' Then you can target your 
aid. The aid is preceding an assessment or, actually, now 
coincident with.
    Mr. Ackerman. Let me ask a question because I am having 
difficulty getting my arms around this. How do you assess in 
the near term whether you are teaching human rights to people 
who are learning it? How do you evaluate gender rights absent 
the 20-year sky view look at it?
    Mr. Bowen. Well, Mr. Ackerman, I think you have raised a 
larger question about assessing development. Those are----
    Mr. Ackerman. It is a dilemma. How do you measure it?
    Mr. Bowen. I think it is extremely difficult to do, Mr. 
Ackerman.
    Mr. Ackerman. So we don't know if we are making progress 
toward it either?
    Mr. Bowen. I think that is a fair assessment.
    Mr. Ackerman. So there is no way to measure it?
    Mr. Bowen. On those two issues, given the long-term nature 
of such programs, it would be difficult to assess it on a year-
to-year basis.
    Mr. Ackerman. So there is no way to evaluate it. We have no 
oversight over a program that is costing hundreds of millions 
of dollars. And it is not going to be able to be demonstrated, 
even if it is working or not working.
    Mr. Bowen. With regard to gender and human rights, I think 
that is true. With regard to the 48 other things that they are 
doing, I think it depends on the particular topic they are 
undertaking.
    For example, one of the programs is, as I was briefed by 
Ambassador Sison, canine training; in other words, providing 
them bomb-sniffing dogs, which also has been going on. The 
military did do that for years already. So there are some 
ground-level aspects of this program as well as higher-level.
    Mr. Ackerman. What do we have the best chance of accurately 
measuring, evaluating in all of the goals of the program?
    Mr. Bowen. I think it is inherently difficult to measure 
mentoring, but the best, the most measurable aspects of this 
program are those that are subject to more objective analysis, 
like how many canine dogs have you provided and training to 
trainers who can use them in bomb-sniffing situations?
    Mr. Ackerman. Let's say the answer is 106. Is that a good 
result?
    Mr. Bowen. That is why you have to set goals ahead of time. 
And that was one of our criticisms about the program. They 
didn't set goals.
    Mr. Ackerman. Are they setting goals now?
    Mr. Bowen. That is what I have been told.
    Mr. Ackerman. How many bomb-sniffing dogs do they need to 
be successful?
    Mr. Bowen. They haven't told me that.
    Mr. Ackerman. How many women in general do they need to be 
successful?
    Mr. Bowen. We are going to follow up in the spring with 
another audit to look at the effects and results of the changes 
made by the Department in implementing our recommendations. And 
I can better answer those questions then.
    Mr. Ackerman. They don't have these metrics in place now?
    Mr. Bowen. I have been told that they are putting them in. 
This was a core criticism of the audit, the absence of 
milestones and metrics. That was our second finding, really. 
And they said that they are doing that. We haven't gone back in 
to review the success of implementing those changes yet.
    Mr. Ackerman. I used to be a school teacher. I knew if a 
kid got between 60 and 65, he was going to get a D and knew 
what the numbers were to give him an F and where I was going to 
give him an A. Do they have such a chart?
    Mr. Bowen. Not that I am aware of. They didn't when we did 
the audit.
    Mr. Ackerman. So they have not said anything?
    Mr. Bowen. No metrics, no milestones.
    Mr. Ackerman. No metrics, no milestones, no money. That is 
my point of view.
    Mr. Chabot. The gentleman's time has expired.
    The gentleman from Pennsylvania, Mr. Marino, is recognized 
for 5 minutes.
    Mr. Marino. Thank you, Chairman.
    Good afternoon, Mr. Bowen, Mr. Furbish. Thank you for being 
here.
    Mr. Bowen. Thank you.
    Mr. Marino. I believe both of you gentlemen were in the 
audience when I was questioning the Secretary Darby about 
missing funds. This may not be directly on point, but it goes 
to the credibility of the prime minister and his government and 
it goes to accounting for our tax dollars. So perhaps you can 
help me with something.
    I am going to read you something that I found early on. In 
October in a USA Today article, it was reported that there was 
$217 million in cash that was stored in a palace that is still 
unaccounted for in Baghdad. There is an additional $1.6 billion 
that was intended for distribution among the regions in Iraq 
that is unaccounted for. And that was part of a $2.4 billion 
deposit to the Baghdad government.
    Also, other information that has come to my attention is 
that one, if not many more, of the government officials have 
just merely walked away with millions of dollars. And the 
government has introduced past legislation laws saying that any 
government official is immune from prosecution for accounting 
for any of this money. No one has been held responsible for it. 
And is this information accurate?
    Mr. Bowen. With regard to the amnesty law of 2008 that the 
Council of Representatives passed, yes. Senior government 
officials in Iraq, Iraqi officials told me that that 
essentially wiped the slate clean for fraud committed prior to 
that date.
    Regarding the development fund for Iraq issues, which you 
raised, we did issue a new audit on that issue, our third that 
identified and raised new questions, identified some answers 
but raised new questions about the U.S. use of Iraqi dollars.
    And, Glenn, why don't you address what our next audit is 
going to hit regarding the $217 million and the $2.8 billion?
    Mr. Marino. Can you do that rather succinctly? I am limited 
here to about 2\1/2\ minutes.
    Mr. Furbish. Very quickly, we are looking right now at how 
the U.S. used that money. That money was used by the Corps of 
Engineers to carrying out projects in Iraq. And we are looking 
at their records to account for that money. We will be 
reporting on that within the next 2 months.
    Mr. Marino. Perhaps we should ask the prime minister if he 
wants to keep these programs in effect over there to account 
for the money that has been missing. There is no indication at 
this point. And perhaps you can help me with this rhetorical 
statement that there have been no plans for Iraq to pass back 
anything that we have spent over there. We will never recoup 
from the lives that we lost over there.
    How can we continue to--I will use this term loosely--do 
business with a government that has proven to be corrupt, has 
proven to have very little concern for their overall 
population? How can I justify to my people in the Tenth 
Congressional District of north central Pennsylvania that we 
are going to spend billions of dollars more in this Iraqi 
Government and my people are losing their jobs?
    If I hear of one more time of a foreign despot leaving or 
living a life of luxury on billions of dollars of taxpayer 
money, I want to be in charge of the team that goes over there 
to apprehend them and bring them back.
    Mr. Bowen. Mr. Marino, corruption is and has been a 
devastating problem in Iraq and has inhibited progress across 
the board on the relief and reconstruction front. More 
importantly, it inhibits progress for the average Iraqi. They 
are going to have a budget next year of over $110 billion. But 
the corruption issue, you know, raises real questions about the 
proper use of that money.
    Mr. Marino. But if I might interrupt you, how are you going 
to measure whether we are making any improvements on curtailing 
corruption over there?
    Mr. Bowen. It is difficult to do because it occurs in the 
shadow. However, let me identify one important step that we 
have been calling for for years and did occur this year. And 
that was the repeal of an article in their criminal code that 
allowed any minister to absolve any employee from any liability 
for fraud. That is obvious counter to the basic notions of 
democracy. They finally did it. And so I commend them on it.
    But the reality is, is having laws on the books like that 
failing to have a Commission on Integrity that does its job, 
failing to have a judiciary that will convict people for 
corruption is why Iraq is in the bottom five in the world in 
transparency internationals index.
    Mr. Marino. Well, at this point I am not convinced to 
support any legislation that would send any more money over to 
Iraq. And I see my time is up, but I thank you gentlemen for 
the work that you have been doing and that you will continue to 
do.
    Mr. Bowen. Thank you, Mr. Marino.
    Mr. Marino. I yield back.
    Mr. Chabot. Thank you. The gentleman's time has expired.
    The gentleman from New York, Mr. Higgins, is recognized for 
5 minutes.
    Mr. Higgins. Thank you, Mr. Chairman.
    Mr. Bowen, you had indicated that you had been in Iraq 33 
times?
    Mr. Bowen. 31.
    Mr. Higgins. 31. Dating back to?
    Mr. Bowen. February 2004.
    Mr. Higgins. 2004. Your last trip was?
    Mr. Bowen. 2 weeks ago.
    Mr. Higgins. Okay. The effort starting in 2003 was to 
commit $8 billion to train the Iraqi police force some 450,000 
Iraqis. Since there are no baseline assessments, again I would 
ask you, as I asked the previous witness, anecdotally what is 
your sense of the security system, the internal security 
system, with respect to Iraq, where the holes are? Are there 
any places like in Baghdad, for example, or Ramadi that provide 
a good example of a successful result from this financial 
effort?
    Mr. Bowen. I think there have been examples of success 
across the country. Anbar Province is much safer than it was 6 
years ago. Kurdistan, the three northern provinces, are largely 
very well in order.
    Mr. Higgins. But they were pretty calm to begin with.
    Mr. Bowen. You're right. There are two Iraqs. There is 
Kurdistan and the southern 15. But, really, what you are 
addressing is the current state of the Iraqi rule of law system 
as a whole. And that embraces corrections, the judiciary, and 
the police.
    And I think that there continue to be serious problems on 
all fronts, not just police training. The judiciary, over 45 
judges have been killed in the last 7 years. I met with Judge 
Medhat during my trip. And another judge had just been killed. 
And he was bemoaning again the lack of weapons cards for his 
judge's security members.
    And then on the prison front, you know, frankly, we 
invested a lot of money building prisons and we wasted a lot of 
money.
    Mr. Higgins. Sadr City, five million population center of 
Baghdad. How does the Iraqi Government deal with Sadr City, 
just stay out of there altogether?
    Mr. Bowen. I think it is a truce of sorts between the 
Sadrists, who control that area, and the rest of Baghdad. And I 
think that is why, frankly, Mr. Maliki's senior Deputy 
Minister, Al-Asadi, and others are concerned that the primary 
location for the Police Development Program in Iraq is right on 
the edge of Sadr City. It is directly next to the Baghdad 
Police College, another place where we wasted a lot of money, 
across the street from the Minister of Interior and adjacent to 
Sadr City and, thus, a magnet for indirect fire.
    Mr. Higgins. Clearly there is a lack of oversight and 
transparency. And that problem is seemingly pervasive and 
growing or at least since we have initiated this back in 2003.
    Why is it that the State Department would deliberately make 
efforts to obstruct efforts to bring greater oversight and 
transparency? Why is there that adversarial relationship? It 
would seem to me that your efforts would be to benefit the 
effective use, efficient use of American resources in that 
region because we all have a strategic interest in seeing that 
region evolve. Why is it that you suspect that the State 
Department is seemingly obstructing those efforts?
    Mr. Bowen. Well, it was obstructing. I think we heard today 
that they are supportive, almost fully supportive, of our 
oversight at this stage. And it took an obstruction letter, 
though, Mr. Higgins, as you were pointing to to break that 
logjam.
    Why? You know, I can't read into the exact motives, but I 
think, to a certain extent, it was a legalistic argument about 
jurisdiction.
    Mr. Higgins. Yes. Okay. Just, you know, a final thought on 
this. You know, someone said, I think it was Tom Friedman. He 
posed a question. He said, ``Is Iraq the way it is because 
Saddam was the way he is or is Saddam the way he is because 
Iraq is the way it is?''
    I just think when you look at this long, expensive effort--
and I don't just mean financial expense, expense in human 
capital--in the surge experience, again, which was to tamp down 
the violence, to provide a breathing space, within which all of 
the political factions in Iraq could reconcile their 
differences and evolve.
    It seems as though, you know the surge succeeded 
militarily. But politically the situation doesn't seem to 
evolve. And obviously the policing issue, as I mentioned 
previously, in northern Ireland is fundamental to the success 
of any kind of power-sharing agreement.
    And without meaningful progress over the past 8 years in 
this renewed effort, given this horrible past of wasted money, 
of great expectations and lofty goals but very, very little to 
show for it, it seems as though, you know, a $1 billion 
expenditure over the next 5 years moving forward is not a good 
use of American resources in a region that I think we have done 
everything that we can do in order to help them achieve their 
objectives, whatever they are, be they consistent with our 
objectives or not.
    So I yield back.
    Mr. Chabot. The gentleman's time has expired.
    The gentleman from Virginia is recognized for 5 minutes and 
will be our final questioner this afternoon.
    Mr. Connolly. Thank you, Mr. Chairman.
    And welcome both to Mr. Furbish and Mr. Bowen. General 
Bowen, I am sure your mother is proud of your performance today 
and your service to your country. Thirty-one trips to Iraq, 
that deserves a special status. I, in fact, traveled with you 
on one of those 31 trips. And I can vouch for the fact that you 
get your hands dirty in trying to understand what is going on.
    Let me pick up where my colleague Mr. Higgins sort of led 
us, which is you said that you issued to the State Department a 
letter of obstruction. Is that right?
    Mr. Bowen. That is right.
    Mr. Connolly. How often do letters of obstruction get 
issued from inspector generals?
    Mr. Bowen. Well, I explored that question after we issued 
it. And my staff tells me that, at least over the last 4 years, 
ours was the only one.
    Mr. Connolly. So on relatively unprecedented ground.
    Mr. Bowen. Yes.
    Mr. Connolly. But you heard the first witness in the first 
panel reassure us up and down that she was mostly kind of fully 
committed to full transparency or transparency and 
accountability. I assume a letter of obstruction would, sadly, 
contradict such an assertion.
    Mr. Bowen. Well, Mr. Connolly, it actually worked in this 
case. We received virtually no documents before August 3rd, the 
date of the letter. And afterwards we got enough to do the 
audit. We didn't get everything we asked for, but vis-a-vis 
what we had in June and July, it was a world of difference.
    Mr. Connolly. If I understood your answer to Mr. Higgins' 
questioning, you attributed this to just turf protection, 
bureaucratic turf protection.
    Mr. Bowen. Yes, sir. I think that is true.
    Mr. Connolly. Well, you know, taxpayer money is on the line 
here. Did you not sense any commitment from the Department of 
State and its officials to joining you in trying to make sure 
that we were protecting this $1 billion investment of U.S. 
taxpayer money?
    Mr. Bowen. I sensed it today.
    Mr. Connolly. Today? I heard you respond to my colleague 
Mr. Ackerman in a declarative sentence, ``There are no metrics 
and no milestones with respect to the PDP.'' Is that correct?
    Mr. Bowen. There weren't when we carried out our audit. 
They are remedying that issue now.
    Mr. Connolly. But you don't know what they are?
    Mr. Bowen. Not yet.
    Mr. Connolly. It would strike, I think, the average 
American, if not the average Member of Congress to invest $1 
billion in anything absent metrics and milestones is a fool's 
herring, whatever the intention, however noble the motivation. 
If you can't measure it, it is not real as far as I am 
concerned. Is that a view shared by you, Mr. Bowen?
    Mr. Bowen. That is my judgment. I have said that if you 
don't show the Congress good metrics and good milestones and 
identify what your goals are, it is tough to ask for more 
money.
    Mr. Connolly. Yes. I think most of us would maybe feel we 
shouldn't, not only more money. We shouldn't spend a dime, 
frankly, without some rigorous metrics and milestones that are 
efficacious, that are meaningful.
    The object here is to train a viable police force that has 
some respect for law that isn't corrupt, that can win the 
confidence of the people and, frankly, enter into the space we 
create when we withdraw. Is that not true?
    Mr. Bowen. I think that is exactly right, Mr. Connolly. And 
we spent, as I said, $8 billion already. This is a 5-year 
program with, you know, several hundred million, actually $400 
million, already spent on this part of it. Are we going to 
spend $2-, $3-, $4 billion more to do what when President 
Talibani said 4 days ago or 5?
    Mr. Connolly. To what did you attribute--you cited in your 
report, I believe, this quote I read the previous witness from 
the senior Deputy Minister of Interior Adnan Al-Asadi, who I 
think referred to the PDP as a hopeless waste of money, your 
money, American money. Is that true?
    Mr. Bowen. That is right. That was his early October 
interview with my deputy, Ginger Cruz. And I met with him 2\1/
2\ weeks ago. He moderated his tone a little bit, but when I 
pressed him more firmly, he said, ``Well, it is still on''----
    Mr. Connolly. ``Still on my Web site''?
    Mr. Bowen. That is right.
    Mr. Connolly. Now, you heard the previous witness attempt, 
I think, to deflect that statement and argue that while our 
understanding is now that he is on board and he supports the 
program, they are still certainly making the request for the 
funding of the program. And she again I think sort of deflected 
my question about ``Well, is that a representative view of 
senior officials over in Iraq or was that sort of an outlier 
point of view or a rare moment of candor?''
    You might want to comment. My time is up.
    Mr. Bowen. Well, he was the only senior official from the 
Ministry of Interior to whom I addressed that issue. And the 
core point is he did not step too far away from it in our 
discussions.
    Mr. Chabot. The gentleman's time has expired. Did you want 
to follow up?
    Mr. Connolly. No, Mr. Chairman. I just want to say thank 
you to you for holding this hearing. I think this hearing has 
raised really serious questions about this program. And 
whatever our intentions are, Lord knows we do need a well-
trained police force in Iraq.
    I don't leave this hearing with any confidence that the 
program in front of us with $1 billion being planned in 
expenditures over the next several years has the slightest 
chance of being effective. And I think that raises real 
questions about how we proceed.
    Thank you, Mr. Chairman.
    Mr. Chabot. Thank you. And I would like to thank the 
members of the panel, both up here, for their participation and 
probing questions this afternoon, the panel, both panels here 
this afternoon. Without objection, all members will have 5 
legislative days to revise and extend their remarks.
    And, if there is no further business to come before the 
committee, we are adjourned. Thank you.
    [Whereupon, at 2:40 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
